<html>
<title> - H.R. 4528; H. CON. RES. 328; H. CON. RES. 257; S. CON. RES. 81; AND H. CON. RES. 348</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
H.R. 4528; H. CON. RES. 328; H. CON. RES. 257; S. CON. RES. 81; AND H. 
                             CON. RES. 348

=======================================================================

                                 MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON
               INTERNATIONAL OPERATIONS AND HUMAN RIGHTS

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 28, 2000

                               __________

                           Serial No. 106-172

                               __________

    Printed for the use of the Committee on International Relations


                               <snowflake>


Available via the World Wide Web: http://www.house.gov/international--
relations
                                 ______


                      U.S. GOVERNMENT PRINTING OFFICE
 68-289 CC                   WASHINGTON : 2000



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

       Subcommittee on International Operations and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
WILLIAM F. GOODLING, Pennsylvania    CYNTHIA A. MCKINNEY, Georgia
HENRY J. HYDE, Illinois              ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
CASS BALLENGER, North Carolina       EARL F. HILLIARD, Alabama
PETER T. KING, New York              BRAD SHERMAN, California
MATT SALMON, Arizona                 WILLIAM D. DELAHUNT, Massachusetts
THOMAS G. TANCREDO, Colorado         GREGORY W. MEEKS, New York
            Grover Joseph Rees, Subcommittee Staff Director
                      Douglas C. Anderson, Counsel
                Peter Hickey, Democratic Staff Director
                    Marta Pincheira, Staff Associate



                            C O N T E N T S

                              ----------                              
                                                                   Page

Markup of H.R. 4528, The International Academic Opportunity Act 
  of 2000........................................................     1
Markup of H. Con. Res. 328, expressing the sense of the Congress 
  in recognition of the 10th anniversary of the free and fair 
  elections in Burma and the urgent need to improve the 
  democratic and human rights of the people of Burma.............     3
Markup of H. Con. Res. 257, concerning the emancipation of the 
  Iranian Baha'i community.......................................     5
S. Con. Res. 81, expressing the sense of Congress that the 
  Government of the People's Republic of China should immediately 
  release Rabiya Kadeer, he secretary, and her son, and permit 
  them to move to the United States if they so desire............     6
Markup of H. Con. Res. 348, expressing the condemnation of the 
  use of children as soldiers and expressing the belief the 
  United States should support and, where possible, lead efforts 
  to end this abuse of human rights..............................     8

                                APPENDIX

Text of H.R. 4528................................................    10
    Amendment offered by Representative Smith....................    14
Text of H. Con. Res. 328.........................................    15
    Amendment offered by Representative Smith....................    20
Text of H. Con. Res. 257.........................................    21
    Amendment offered by Representative Smith....................    27
Text of S. Con. Res. 81..........................................    28
Text of H. Con. Res. 348.........................................    32
    Amendment offered by Representative Smith....................    37



H.R. 4528; H. CON. RES. 328; H. CON. RES. 257; S. CON. RES. 81; AND H. 
                             CON. RES. 348

                              ----------                              


                        WEDNESDAY, JUNE 28, 2000

              House of Representatives,    
                  Subcommittee on International    
                           Operations and Human Rights,    
                      Committee on International Relations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:45 a.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (Chairman of the Subcommittee) presiding.
    Mr. Smith. The Subcommittee on International Operations and 
Human Rights will come to order. We meet in open session today, 
pursuant to notice, to mark up several legislative items. We 
will first now consider H.R. 4528, the International Academic 
Opportunity Act. The Chair lays the bill before the table and 
the Subcommittee. The clerk will report the title of the bill.
    [The bill appears in the appendix.]


                       consideration of h.r. 4528


    Mr. Rees. H.R. 4528, to establish an undergraduate grant 
program of the Department of State to assist students of 
limited financial means from the United States to pursue 
studies at foreign institutions of higher education.
    Mr. Smith. Without objection, the first reading of the bill 
is dispensed with. The clerk will read the bill for amendment.
    Mr. Rees. A bill to establish an undergraduate----
    Mr. Smith. Without objection, the bill is considered as 
having been read and is open for amendment at any time, and I 
do have an amendment at the desk and I would ask that it be 
distributed.
    Mr. Rees. I think it has been distributed.
    [The amendment appears in the appendix.]
    Mr. Smith. Would you read the amendment?
    Mr. Rees. The amendment is as follows, page 2 after line 17 
insert the following, Grants under this Act shall be known as 
the Benjamin A. Gilman International Scholarships.
    Mr. Smith. Let me just make a few opening comments about 
the bill itself and the amendment.
    H.R. 4528, the International Academic Opportunity Act of 
2000, was introduced last month by the distinguished Chairman 
of the full Committee, Ben Gilman, and his Democratic colleague 
from New York, Representative Hinchey. The bill would establish 
a grant program to help American undergraduate students of 
limited financial means to study abroad and authorizes $1.5 
million per year for that purpose.
    It also requires that Congress be provided with an annual 
report on the number of participating students and institutions 
at which they study.
    The intent of the bill is to provide the study abroad 
programs that exist at many colleges and universities with 
funds that will allow them to reach out to students that might 
not otherwise consider such study because of the additional 
travel and living expenses it requires. By providing for a 
single year grants of up to $5,000 per student, this bill will 
help students who have demonstrated financial need to avail 
themselves of this valuable educational experience.
    By living and studying in a new culture and country, these 
students will be better equipped to participate in world 
affairs and in our increasingly global economy. Furthermore, by 
broadening participation in U.S. public diplomacy efforts, this 
new program will give the communities to which our students 
travel a richer, more diverse experience of American culture.
    Let me just say in terms of the amendment, it would be 
named after our distinguished Chairman, Ben Gilman, and I have 
to note having served in Congress for 20 years and having known 
Ben for each of those 20 years, having been on this Committee 
for those years, there is nobody who is more worthy of this 
kind of honor and this is just a token of the kind of respect 
that I and my colleagues feel for our distinguished gentleman 
from New York, Ben Gilman, Chairman of our Committee.
    I will be happy to yield to my friend.
    Mr. Gilman. Thank you, Chairman Smith, for your kind 
remarks and for going out of your way to entitle this program, 
the Gilman International Scholarship Program, something we have 
been deeply committed to, and I want to thank your Committee, 
Chairman Smith, for taking this up at an early date.
    This measure seeks to give our lower-income college 
students opportunities, through grants, to study overseas for a 
2-year period. Our future depends on an experienced world and 
to have the kind of experience that our students would gather 
from this kind of a program. The bill provides underprivileged 
youngsters with grants for study abroad. The program opens 
study abroad to all college students.
    We have found that exchange programs have been extremely 
helpful to help in career planning for those who are interested 
in international affairs, and also give young students an 
opportunity to learn about other cultures.
    I have had an exchange program that I developed many years 
ago with South Korea, where we send over our internships every 
summer for a 3-week period. This will be the 18th year for that 
program. We have found it to be extremely helpful to young 
students who are interested in learning about Asian culture and 
politics.
    So I want to commend our Subcommittee Chairman, Mr. Smith, 
who has always had an interest not only in exchanges, but in 
human rights and so many other important aspects of religious 
freedom, for taking this measure up at an early date; and I 
yield back the balance of my time.
    Mr. Smith. I thank my good friend and thank you for your 
very kind comments. The question is on the amendment. Those in 
favor say ``aye.'' Those opposed, ``no.'' The ayes have it and 
the amendment is agreed to. I move that the Subcommittee report 
the bill H.R. 4528, as amended, favorably to the full 
Committee.
    Without objection, the motion is agreed to.
    And I thank you again, Mr. Gilman, for your participation.
    We will now consider H. Con. Res. 328, expressing the sense 
of Congress relative to the urgent need to improve the 
democratic and human rights of the people of Burma. The Chair 
lays the resolution before the Subcommittee. The clerk will 
report the title of the resolution.
    [The resolution appears in the appendix.]


                   consideration of h. con. res. 328


    Mr. Rees. H. Con. Res. 328, expressing the sense of the 
Congress in recognition of the 10th anniversary of the free and 
fair elections in Burma and the urgent need to improve the 
democratic and human rights of the people of Burma.
    Mr. Smith. Without objection, the clerk will read the 
preamble and operative language of the resolution for 
amendment.
    Mr. Rees. Concurrent resolution expressing the sense of the 
Congress in recognition of the 10th anniversary of the free and 
fair elections in Burma and the urgent need to improve the 
democratic and human rights of the people of Burma.
    Mr. Smith. Without objection, the resolution is considered 
as having been read and is open for amendment at any point.
    This resolution was introduced on May 16th and was referred 
by the Chairman to this Subcommittee. I would like to make a 
couple of points about it.
    Just over 10 years ago, in the spring of 1990, the people 
of Burma courageously embraced democracy. In the face of 
intimidation by the Burmese military, they turned out in record 
numbers to participate in free and fair elections. In those 
elections, the National League for Democracy, led by Aung San 
Suu Kyi, won more than 60 percent of the popular vote and 80 
percent of the seats in parliament. The Burmese military 
responded by rejecting the election results, imprisoning 
hundreds of NLD members, including Aung San Suu Kyi, and 
severely curtailing the civil liberties of the Burmese people.
    Since that time, the ruling thugs who currently call 
themselves the State Peace and Development Council, formerly 
they were known as the SLORC, have inflicted massive human 
rights violations and economic privations on the people of 
Burma. More than 1,300 political prisoners, including the woman 
elected to lead Burma, Aung San Suu Kyi--still suffer at the 
hands of their government captors. The Burmese regime routinely 
uses forced labor, and it continues to wage a brutal war 
against ethnic minorities within in its borders.
    In August 1998, I travelled to that region in an effort to 
secure the release of one my constituents, Michelle Keegan, who 
had been seized by the Burmese authorities for passing out 
cards that stated, ``We have not forgotten you; we support your 
hopes for human rights and democracy.''
    The SLORC repeatedly refused my request for a visa to enter 
Burma, so I had to negotiate her release from Bangkok, 
Thailand. After 5 days of detention, Michelle and 17 other 
foreign activists were expelled from Burma, but not until they 
had been sentenced to 5-years imprisonment for sedition.
    I am proud that the State Department authorization bill 
that I introduced in this Congress--and it was signed by the 
President last fall--retains a provision that helps ensure that 
the United Nations Development Program does not enrich the 
Burmese military regime. It reduces U.S. contributions to 
U.N.D.P. By the amount that the program spends in Burma, unless 
U.N.D.P.'s activities in Burma one, are focused on eliminating 
human suffering; two, are carried out only through private 
voluntary organizations that are independent of the regime; 
three, do not benefit the regime; and four, are carried out 
only after consultation with the leadership of the National 
League for Democracy and the leadership of the national 
coalition government of the Union of Burma.
    The resolution before us today, H. Con. Res. 328, 
commemorates the 1990 elections, describes accurately the 
situation in Burma and expresses the sense of Congress that the 
United States should strongly support the restoration of 
democracy in that country. It urges the military regime in 
Burma to guarantee basic freedoms for Burmese citizens, to 
undertake political dialogue with the National League for 
Democracy and ethnic leaders, and to immediately release all 
political prisoners, and to fulfill the conditions of 
international human rights instruments.
    It also recognizes the current sanctions in place against 
the Government of Burma as appropriate means of pursuing 
democracy and civil liberties for the people of Burma and 
vindicating the United States security interests.
    I will bring a brief amendment momentarily after--I think 
Mr. Gilman might have something to say on this--that 
incorporates some technical suggestions made by the State 
Department, and it enumerates in greater detail the 
international human rights covenants that we expect the Burmese 
regime to respect in its treatment of the people of Burma.
    I do have an amendment at the desk, and I would ask that 
the clerk would read it.
    [The amendment appears in the appendix.]
    Mr. Rees. Amendment to H. Con. Res. 328, offered by Mr. 
Smith of New Jersey: In the 11th clause of the preamble----
    Mr. Smith. Without objection, the amendment is considered 
as read; and I just want to note that it does contain technical 
enhancements to the bill. They were recommended to us by the 
State Department and by others. The question is on the 
amendment. All those in favor, say ``aye.'' Those opposed, 
``no.'' The ayes have it and the amendment is agreed to.
    I move that the resolution be reported favorably, as 
amended, to the full Committee on International Relations. 
Without objection, the motion is agreed to.
    Since we do have a vote pending and we have two additional 
resolutions, the Subcommittee will take a very brief pause and 
then return in about 10 or 20 minutes.
    [Recess.]
    Mr. Smith. The Subcommittee will resume its sitting.
    Without objection, H. Con. Res. 328, as amended, will be 
reported to the full Committee and will be reported favorably.
    We now meet to mark up H. Con. Res. 257 relating to the 
emancipation of the Iranian Baha'i community. The Chair lays 
the resolution before the Subcommittee. The clerk will report 
the title of the resolution.
    [The resolution appears in the appendix.]


                   consideration of h. con. res. 257


    Mr. Rees. H. Con. Res. 257, concerning the emancipation of 
the Iranian Baha'i community.
    Mr. Smith. Without objection, the clerk will read the 
preamble and the operative language of the resolution for 
amendment.
    Mr. Rees. Concurrent resolution concerning the emancipation 
of the Iranian Baha'i community. Whereas----
    Mr. Smith. Without objection, the resolution is considered 
as having been read and is open for amendment at any point.
    The resolution was introduced on February 29, 2000, and 
referred by the Chairman of the full Committee to this 
Subcommittee; and I would like to yield to my good friend Ms. 
McKinney if she has any comments on the resolution.
    Ms. McKinney. Mr. Chairman, I don't have any comments on 
the resolution.
    Mr. Smith. And I do have an amendment that I would ask be 
considered by the Subcommittee.
    [The amendment appears in the appendix.]
    Mr. Rees. The amendment to H. Con. Res. 257, offered by Mr. 
Smith of New Jersey. In the preamble, strike the fifth clause 
and insert the following.
    Mr. Smith. Without objection, the amendment is considered 
as having been read.
    During the past year, according to the State Department, 
the religious minorities in Iran, particularly the Baha'i, 
continue to suffer repression by conservative elements of the 
judiciary and the security establishment. Adherents of the 
Baha'i faith continue to face arbitrary arrest and detention. 
The Government of Iran appears to adhere to a practice of 
keeping a small number of Baha'i in detention at any given 
time.
    Furthermore, several Baha'i remain on death row in Iran, 
having been convicted of apostasy, or actions against God, for 
practicing their faith. Such trials are carried out in the same 
manner as is reserved for threats to national security and 
reflect the view that the Baha'i faith is an espionage 
organization.
    Baha'i are denied entry into the state-controlled 
university system, and the Government of Iran has raided 
hundreds of homes in an effort to disrupt the alternative 
educational system constructed by the Baha'i community.
    In sum, according to the State Department, followers of 
Baha'i faith effectively enjoy no legal rights in Iran. H. Con. 
Res. 257 introduced by my friend and colleague Mr. Porter of 
Illinois details and condemns the serious persecution suffered 
by the Baha'i community at the hands of the Iranian 
authorities. It urges the Government of Iran to respect basic 
human rights in its treatment of the Baha'i community, and it 
calls on the President of the United States to make the human 
rights practices of the Government of Iran a significant factor 
in the development of the bilateral relationship between our 
two countries.
    The minor amendment that I am offering today to the 
original language updates the number of Baha'i who are 
currently on death row, makes it accurate, and it also adds 
references to the specific international human rights 
agreements that Iran should live up to in its treatment of the 
Iranian Baha'i community.
    Does the gentlelady have something she would like to say 
about the amendment?
    The question is on the amendment. Those in favor, say 
``aye.'' Those opposed? The ayes have it and the amendment is 
agreed to.
    Are there any other amendments or any other comments that 
Members of the Committee would like to make?
    The Chairman recognizes the gentlelady from Georgia for a 
motion.
    Ms. McKinney. I move that the Subcommittee report the 
resolution, as amended, favorably to the full Committee.
    Mr. Smith. Without objection, the motion is agreed to and 
the resolution will be reported favorably to the full 
Committee.
    The next resolution that we will take up this morning is S. 
Con. Res. 81, related to prisoners of the People's Republic of 
China. The Chair lays the resolution before the Subcommittee. 
The clerk will report the title of the resolution.
    [The resolution appears in the appendix.]


                    consideration of s. con. res. 81


    Mr. Rees. S. Con. Res. 81, concurrent resolution, 
expressing the sense of the Congress that the Government of the 
People's Republic of China should immediately release Rabiya 
Kadeer, her secretary, and her son, and permit them to move to 
the United States if they so desire.
    Mr. Smith. Without objection, the clerk will read the 
preamble and the operative language of the resolution.
    Mr. Rees. Whereas Rabiya Kadeer, a prominent ethnic Uighur 
from the Xinjiang Uighur autonomous region of the People's 
Republic of China, her Secretary and her son were arrested on 
August 11, 1999----
    Mr. Smith. Without objection, the resolution is considered 
as having been made read and is open to amendment at any point.
    This resolution was introduced on May 3, referred by the 
Chairman of the full Committee to our Subcommittee. And I would 
like to make a very short comment on this, and then 
unfortunately, we do have another vote on the floor of the 
House.
    S. Con. Res. 81, already passed by the Senate last month, 
expresses the sense of Congress that the People's Republic of 
China should immediately release Rabiya Kadeer, her son and her 
Secretary, and should allow them to move to the United States 
if they so desire.
    Ms. Kadeer, a prominent Uighur Muslim businesswoman in the 
Xinjiang province of China, was detained by Chinese security 
authorities along with her son and her secretary in August of 
last year. She was on her way to meet a visiting congressional 
staff delegation. She was held incommunicado for months, and in 
March of this year was sentenced to 8 years in prison for, 
``illegally giving state information across the border.'' Her 
crime was sending local newspaper clippings to her husband in 
the United States.
    Ms. Kadeer's husband, Sadik Haji, a Uighur political 
activist, has been granted asylum in the United States and has 
participated in Radio Free Asia broadcasts into the PRC.
    Ms. Kadeer's imprisonment is the latest and most serious 
attempt by the Beijing regime to silence her husband by 
persecuting the family members who still reside in the People's 
Republic of China. The Chinese Government prevented Ms. Kadeer 
from leaving China by confiscating her passport many months 
beforehand.
    On March 2 of this year, her daughter, Reyila Abdureyim, 
appeared before our Subcommittee, providing compelling 
testimony about the plight of her mother and about the PRC's 
brutal repression of the Uighur Muslim population in Xinjiang 
autonomous region.
    The latest State Department country report on the human 
rights practices in China also confirms that crackdown and 
describes the police killings and summary executions of the 
Uighurs and tight restrictions on Muslim religious practice. We 
actually saw a video of the kind of mischief that the security 
forces visit upon the Uighurs, and it was outrageous.
    I do hope that the Subcommittee will report this to the 
Committee favorably; and again, I would like to yield to my 
friend from Georgia if she has any comments.
    Ms. McKinney. No comment.
    Is it proper for a motion?
    Mr. Smith. It is proper for a motion.
    Ms. McKinney. OK.
    Mr. Chairman, I move that the Subcommittee do report 
favorably S. Con. Res. 81 to the full Committee.
    Mr. Smith. The motion has been made.
    Without objection, the motion is agreed to, and I move that 
the Subcommittee Staff Director be allowed to make technical, 
conforming, and grammatical amendments to the measure and 
prepare a substitute reflecting the Subcommittee's action as a 
single amendment. Without objection, that is so ordered.
    Again, we have 6 minutes to make our way over to the floor. 
I say to my friends, we do have one final resolution which we 
will get to as soon as we reconvene momentarily.
    Ms. McKinney. Why don't we just go ahead and do it? Can we 
do it?
    Mr. Smith. OK.
    Ms. McKinney. The Chairman doesn't seem to operate under 
pressure.
    Mr. Smith. I am fine under pressure, just not good under 
time.
    H. Con. Res. 348, relating to child soldiers, and the clerk 
will report the resolution.
    [The resolution appears in the appendix.]


                   consideration of h. con. res. 348


    Mr. Rees. H. Con. Res. 348, expressing condemnation of the 
use of children as soldiers and expressing the belief that the 
United States should support and, where possible, lead efforts 
to end this abuse of human rights.
    Mr. Smith. Without objection, the clerk will read the 
preamble and operative language of the resolution for 
amendment.
    [The amendment appears in the appendix.]
    Mr. Rees. Concurrent resolution expressing condemnation of 
the use of children as soldiers and expressing the belief that 
the United States should support and, where possible, lead 
efforts to end this abuse of human rights.
    Mr. Smith. Without objection, the resolution is considered 
as having been read. This resolution was introduced on June 7 
and referred by the Chairman of the full Committee, Mr. Gilman, 
to this Subcommittee.
    Are there any Members who would like to comment on this?
    Ms. McKinney. Go ahead and read it.
    Mr. Smith. Please do.
    Ms. McKinney. Mr. Chairman, I would like to make the 
motion. I would like to move that the Subcommittee do favorably 
report H. Con. Res. 348 to the full Committee.
    Mr. Smith. Without objection, the motion is agreed to. And 
again without objection, the Staff Director may make those 
technical and conforming and grammatical amendments to the 
measure, including the amendment that has been distributed to 
the Subcommittee Members.
    The markup is concluded.
    [Whereupon, at 11:20 a.m., the Subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             June 28, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T8289.001
    
    [GRAPHIC] [TIFF OMITTED] T8289.002
    
    [GRAPHIC] [TIFF OMITTED] T8289.003
    
    [GRAPHIC] [TIFF OMITTED] T8289.004
    
    [GRAPHIC] [TIFF OMITTED] T8289.005
    
    [GRAPHIC] [TIFF OMITTED] T8289.006
    
    [GRAPHIC] [TIFF OMITTED] T8289.007
    
    [GRAPHIC] [TIFF OMITTED] T8289.008
    
    [GRAPHIC] [TIFF OMITTED] T8289.009
    
    [GRAPHIC] [TIFF OMITTED] T8289.010
    
    [GRAPHIC] [TIFF OMITTED] T8289.011
    
    [GRAPHIC] [TIFF OMITTED] T8289.012
    
    [GRAPHIC] [TIFF OMITTED] T8289.013
    
    [GRAPHIC] [TIFF OMITTED] T8289.014
    
    [GRAPHIC] [TIFF OMITTED] T8289.015
    
    [GRAPHIC] [TIFF OMITTED] T8289.016
    
    [GRAPHIC] [TIFF OMITTED] T8289.017
    
    [GRAPHIC] [TIFF OMITTED] T8289.018
    
    [GRAPHIC] [TIFF OMITTED] T8289.019
    
    [GRAPHIC] [TIFF OMITTED] T8289.020
    
    [GRAPHIC] [TIFF OMITTED] T8289.021
    
    [GRAPHIC] [TIFF OMITTED] T8289.022
    
    [GRAPHIC] [TIFF OMITTED] T8289.023
    
    [GRAPHIC] [TIFF OMITTED] T8289.024
    
    [GRAPHIC] [TIFF OMITTED] T8289.025
    
    [GRAPHIC] [TIFF OMITTED] T8289.026
    
    [GRAPHIC] [TIFF OMITTED] T8289.027
    
    [GRAPHIC] [TIFF OMITTED] T8289.028
    
                                    <all>

</pre></body></html>
